March 20, 2008

MICHAEL S. FUREY
NORTHERN VIRGINIA DISTRICT MANAGER

SUBJECT: Audit Report – Northern Virginia District Energy Management Savings
         Opportunities (Report Number DA-AR-08-003)

This report presents the results of our self-initiated audit of Northern Virginia District
energy management savings opportunities (Project Number 08YG002DA000). Our
objective was to evaluate the Northern Virginia District’s (the District) efforts to reduce
electricity consumption and costs. The current U.S. Postal Service energy management
program focuses on facilities of more than 100,000 square feet. We reviewed the
District’s efforts at facilities that were between 10,000 and 100,000 square feet. See
Appendix A for additional information on this audit.

Energy Savings Opportunities Exist at Smaller Sites

Federal laws1 require the Postal Service to reduce energy consumption at facilities to
the maximum extent practical. However, the Postal Service has not applied the
District’s energy management program to facilities less than 100,000 square feet. Our
audit revealed several low- or no-cost opportunities to improve energy efficiency at
these smaller sites including conducting energy walk-through inspections at the sites.
Smaller facilities in the District did not have energy management plans, primarily
because the District, following national strategic direction, focused its energy savings
efforts on larger facilities. As a result, the District has not completely seized
opportunities to reduce energy consumption and lower energy costs. Further,
insufficient internal controls over the payment of the District’s electricity bills resulted in
assets at risk of approximately $2 million for calendar year 2007. See Appendix B for
our detailed analysis of this issue.

For facilities less than 100,000 square feet within the District, we recommend the
Northern Virginia District Manager:

    1. Establish energy awareness programs.

    2. Explore the use of low- and no-cost energy conservation initiatives, such as
       lighting sensors and more energy efficient thermostat settings.

1
  The Energy Policy Act (EPACT) of 1992 and the Energy Policy Act of 2005 require the Postal Service to lower its
energy consumption to meet specific goals. The Energy Independence and Security Act of 2007 expanded these
requirements.
Northern Virginia District Energy                                        DA-AR-08-003
 Management Savings Opportunities



   3. Direct applicable personnel to do periodic walk-through inspections at facilities to
      measure compliance with Energy Management Program initiatives.

   4. Direct applicable personnel to review and monitor energy bills to ensure accuracy
      and review the adequacy of rate plans.

Management’s Comments

Management agreed with our findings and recommendations and is taking the following
actions:

   •   Recommendation 1 – The Northern Virginia District has named the Finance
       Manager as the Energy Coordinator who will provide energy awareness
       information to its field sites by March 31, 2008.

   •   Recommendation 2 – The District intends to undertake low- or no-cost energy
       initiatives beginning in March 2008, and will explore the use of a modified self-
       checklist for walk-through inspections.

   •   Recommendation 3 – The District will require local site managers to perform
       walk-through inspections by June 30, 2008, and submit certificates of completion.

   •   Recommendation 4 – The Northern Virginia District will address the importance
       of reviewing and approving electricity bills with postmasters by March 31, 2008,
       and follow up with specific responsibilities for invoice reviewers.

Management partially agreed with the non-monetary impact of our findings. They
indicated that three of 12 sites did review their bills and, as such, should reduce the
impact presented accordingly.

We have included management’s comments, in their entirety, in Appendix E.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendations and the corrective
actions should resolve the issues identified in the report. We agree with management’s
assertion regarding the non-monetary impact and have revised our assets at risk figures
accordingly.

The U.S. Postal Service Office of Inspector General (OIG) considers all the
recommendations significant and, therefore, requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking




                                             2
Northern Virginia District Energy                                     DA-AR-08-003
 Management Savings Opportunities


system until the OIG provides written confirmation that the recommendations can be
closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel A. Castillo, Director,
Engineering, or me at (703) 248-2100.


 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Tom Samra
    Carolyn Cole
    Katherine S. Banks




                                           3
Northern Virginia District Energy                                          DA-AR-08-003
 Management Savings Opportunities


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service has over 34,000 facilities nationwide. During fiscal years (FY) 2006
and 2007, the Postal Service expended more than $600 million in utility costs to support
operations at these facilities. Ninety-eight percent of utility costs are for electricity, gas,
and oil, with electricity alone accounting for approximately 80 percent of the total costs.
The major contributors to electricity costs are heating, ventilation, air conditioning,
lighting, and equipment.

In the Northern Virginia District, there are 127 facilities of less than 100,000 square feet.
In FY 2007, payments to electricity providers for these facilities totaled approximately
$2 million, or 73 percent of the District’s total electricity costs.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate the Northern Virginia District’s efforts to reduce electricity
consumption and costs. To accomplish our objective, we selected 12 facilities from the
Northern Virginia District to determine their commitment to energy conservation
programs. The 12 facilities randomly selected were from the universe of facilities of
between 10,000 and 100,000 square feet. These facilities are Postal Service retail or
mail processing locations.

We conducted this performance audit from November 2007 through March 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We reviewed policies and
procedures for internal controls and discussed our observations and conclusions with
management officials on February 19, 2008. We included their comments where
appropriate.

We extracted data from the Electronic Data Warehouse, E-Buy, and the Facilities
Management System files. Previous OIG reports related to these systems did not
reveal weaknesses that would affect our audit.

PRIOR AUDIT COVERAGE

We did not identify any prior audits or reviews related to the objective of this audit.




                                               4
Northern Virginia District Energy                                         DA-AR-08-003
 Management Savings Opportunities



                           APPENDIX B: DETAILED ANALYSIS

Energy Savings Opportunities Exist Within the Northern Virginia District

The Northern Virginia District does not have an energy management program in place
for facilities of less than 100,000 square feet. Our audit revealed several low- or no-cost
opportunities to conserve energy and improve efficiency at these smaller facilities. We
discuss our observations below and detail them in Appendix D.

   •   Energy awareness program. The 12 facilities visited did not have energy
       awareness programs. Energy awareness programs teach energy users to
       eliminate waste without diminishing their quality of life. Awareness encourages
       users to develop simple, cost-effective energy habits such as extinguishing lights
       when spaces are unoccupied. Energy awareness programs also help ensure
       that existing energy systems are used to maximum efficiency.

   •   Motion sensors and timers. Eight of 12 facilities visited did not use motion
       sensors to minimize electricity consumption and costs. Motion sensors are very
       effective in areas that are used occasionally, such as copying rooms, conference
       rooms, and restrooms.

   •   Lights in use when space was unoccupied. Five of 12 facilities did not
       extinguish lights when space was unoccupied. Extinguishing lights in an area
       when employees have completed an operation or task, or when the day’s
       operations have been completed, is clearly more energy efficient than leaving
       them on. In addition, exterior lights on outdoor docks were left on during the
       daytime at two facilities. Postal Service facilities could use a timer to turn exterior
       lights on at sunset and off about an hour after sunrise. Photocells can perform
       this task automatically.

   •   Use of alternate lighting. Ten of 12 facilities did not use alternate lighting,
       which involves reducing the number of light bulbs and fixtures in use within a
       facility to conserve electricity.

   •   Monitoring thermostat settings. Nine of 12 facilities did not monitor heating
       and cooling settings. The Postal Service recommends that they be set at 65
       degrees Fahrenheit (°F) in the winter and 78°F in the summer.

   •   Review of energy bills. The Northern Virginia District uses e-Buy to pay utility
       bills. According to the Postal Service utility payment policy, when a utility
       company sends an electronic data file to accounting for payment, post offices
       may perform a post-payment certification using the web site provided.
       Alternatively, the post office may verify individual utility bills and process
       payments locally using the purchase card. If a payment exceeds $10,000, the



                                              5
Northern Virginia District Energy                                              DA-AR-08-003
 Management Savings Opportunities


           post office is to prepare an authorization for payment and submit it to accounting.
           During calendar year 2007, the Northern Virginia District paid over $2.7 million
           for electricity usage, but did not adequately validate the electricity bills. In nine of
           12 district sites analyzed, personnel did not review the energy bills before
           authorizing payment and none reviewed the savings potential for using other rate
           plans. In two instances, sites received bills for electricity usage associated with
           meters that could not be located. In addition, other rate plans, such as time of
           use plans, were publicized by the electricity provider but not evaluated by district
           personnel.

As summarized in Appendix C, federal energy policies require the Postal Service to
reduce consumption at facilities to the maximum extent practical. Postal Service
Handbook AS-558, Facility Energy Management Guide, provides guidance for realizing
many of the energy opportunities identified, including energy awareness, lighting
practices, and temperature settings.

Smaller facilities in the Northern Virginia District did not have energy management plans
because the District focused its energy saving efforts on facilities with space exceeding
100,000 square feet. Furthermore, none of the sites conducted energy walk-through
inspections, as described by the Postal Service’s energy guide,2 to identify these
potential savings. As a result, the District has opportunities to reduce energy
consumption in keeping with federal mandates and to lower energy costs. Further,
inadequate internal controls over the payment of Northern Virginia District electricity bills
resulted in assets at risk of approximately $2 million, which we will report in our
Semiannual Report to Congress.




2
    Handbook AS-558, Facility Energy Management Guide, Chapter 8, Section 2.



                                                        6
Northern Virginia District Energy                                         DA-AR-08-003
 Management Savings Opportunities


                  APPENDIX C: SUMMARY – APPLICABLE ENERGY
                          MANAGEMENT LEGISLATION

The Energy Policy Act (EPACT) of 1992:

•   Made EPACT applicable by specifically including the Postal Service.

•   Called for a 20 percent energy reduction at facilities through FY 2000.

•   Section 166 required the Postal Service to follow the same standards as other
    federal agencies, as found in Section 543 of the National Energy Conservation
    Policy Act (NECPA).

•   Required energy initiatives to be implemented to the maximum extent practical.

The Energy Policy Act of 2005:

•   Amended many provisions of building energy requirements.

•   Set energy reduction goals at 20 percent between 2006 and 2015.

The Energy Independence and Security Act of 2007:

•   Section 323 set energy efficiency requirements and use of energy-efficient lighting
    fixtures.

•   Section 431 expanded energy reduction goals to 30 percent between 2006 and
    2015.

•   Section 432 amended NECPA Section 543 to require each federal agency to
    designate a federal energy manager responsible for reducing energy use at each
    facility included in a group of facilities that use 75 percent of the agency’s energy.
    Each calendar year, the energy manager shall complete a comprehensive energy
    and water evaluation study for 25 percent of the facilities within the 75-percent
    energy usage group. The energy manager will use a web-based certification
    process established by the Department of Energy for the facilities identified.




                                              7
Northern Virginia District Energy                                                                     DA-AR-08-003
 Management Savings Opportunities



                        APPENDIX D: SUMMARY OF NORTHERN VIRGINIA DISTRICT SITE RESULTS

                                                                                                           Lights Left On in
                               Motion     Awareness   Electricity Bill    Thermostat      Alternate          Unoccupied
    Post Office Sites         Sensors      Program     Monitoring          Monitoring      Lighting            Spaces
                            Yes     No   Yes     No     Yes        No    Yes       No   Yes      No        Yes        No
Alexandria                   X                  X                  X              X              X                    X
Arlington                    X                  X        X                        X              X          X
Annandale                           X           X                  X              X              X          X

Falls Church                        X           X                  X              X      X                  X

Herndon                      X                  X                  X              X              X                    X

Xxxxxxx Xxx Xxxx                    X           X                  X              X              X                    X

Leesburg                            X           X                  X      X                      X                    X

McLean                              X           X                                 X              X                    X
Purcellville                        X           X        X                X                                           X

Sterling                            X           X        X                X              X                  X

Vienna                              X           X                  X              X              X          X

Woodbridge                   X                  X                  X              X              X                    X
           Totals            4      8     0     12       3         9      3       9      2      10          5         7




                                                          8
Northern Virginia District Energy               DA-AR-08-003
 Management Savings Opportunities


                 APPENDIX E. MANAGEMENT’S COMMENTS




                                    8
Northern Virginia District Energy       DA-AR-08-003
 Management Savings Opportunities




                                    9
